WAIVER
Supreme Court of the United States
No. 20- 605
Kiernan Wholean, et al.
(Petitioners)

v.

CSEA SEIU Local 2001, et al.
(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:

Please enter my appearance as Counsel of Record for all respondents.
X

There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

CSEA SEIU Local 2001

X I am a member of the Bar of the Supreme Court of the United States.

I am not presently a member of the Bar of this Court. Should a response be requested
the response will be filed by a Bar member.
Signature

Date:

December 2, 2020

(Type or print) Name.

Firm

Scott A. Kronland

X Mr.

Ms.

Mrs.

Miss

Altshuler Berzon LLP

Address 177 Post Street, Suite 300
City & State

San Francisco, CA

Zip

94108

Phone (415) 421-7151

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONERS IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc: Jeffrey Daniel Jennings
Clare E. Kindall

Obtain status of case on the docket. By phone at 202- 479- 3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

